Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 VULNERABILITIES IN CMS’S
    AND CONTRACTORS’
 ACTIVITIES TO DETECT AND
     DETER FRAUD IN
   COMMUNITY MENTAL
     HEALTH CENTERS



                    Daniel R. Levinson
                     Inspector General

                      January 2013
                     OEI-04-11-00101
EXECUTIVE SUMMARY: VULNERABILITIES IN CMS’S AND
CONTRACTORS’ ACTIVITIES TO DETECT AND DETER FRAUD IN
COMMUNITY MENTAL HEALTH CENTERS
OEI-04-11-00101

WHY WE DID THIS STUDY

During 2010, 206 community mental health centers (CMHC) received an estimated
$218.6 million for providing partial hospitalization program services to approximately
25,000 Medicare beneficiaries. Arrests by Medicare Fraud Strike Forces indicate that
some parts of the country have a higher prevalence of CMHC fraud, including areas in
Florida, Louisiana, and Texas. A recent Office of Inspector General (OIG) study found
that approximately half of CMHCs exhibited questionable billing in 2010, most of which
were in Florida, Louisiana, and Texas. Other OIG studies have found problems with the
Centers for Medicare & Medicaid Services’ (CMS) oversight of contractors.

HOW WE DID THIS STUDY

We collected information and documentation from CMS, Medicare Administrative
Contractors (MAC), and Zone Program Integrity Contractors (ZPIC) regarding activities
to detect and deter fraudulent CMHC billing in 2010. We also analyzed Medicare claims
data from the National Claims History Outpatient File to determine the extent to which
Medicare paid CMHCs subject to payment suspensions, revocations, or selected autodeny
edits in 2010.

WHAT WE FOUND

One of nine MACs we reviewed performed activities to detect and deter CMHC fraud in
2010, and most of these were part of a CMS-led special project. Activities to detect and
deter CMHC fraud varied substantially among ZPICs in 2010, with one ZPIC performing
almost all such activities. Most of these activities were part of the same CMS-led special
project. Other MACs and ZPICs performed minimal activities to detect and deter
fraudulent CMHC billing, despite having jurisdiction over fraud-prone areas.
Additionally, Medicare paid CMHCs that did not comply with its requirements after their
revocations were effective and while their revocations were being approved. Medicare
also could have prevented payments to potentially fraudulent CMHCs by consistently
applying an autodeny edit across Florida CMHCs.

WHAT WE RECOMMEND

We recommend that CMS (1) implement additional CMHC fraud mitigation activities in
all fraud-prone areas, (2) develop a system to track revocation recommendations and
improve revocation communication with contractors, (3) coordinate activities to deter
CMHC fraud in Florida, and (4) follow up on payments made to CMHCs after the
effective dates of their billing privilege revocations. CMS concurred with all four
recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ..............................................................................................10
Findings......................................................................................................13
           One of nine MACs we reviewed performed activities to detect
           and deter CMHC fraud in 2010, and most were part of a
           CMS-led special project .................................................................13
           Activities to detect and deter CMHC fraud varied substantially
           among ZPICs in 2010 ....................................................................14
           Medicare paid CMHCs that did not comply with its requirements
           in 2010 and could have prevented payments to potentially
           fraudulent CMHCs .........................................................................18
Conclusion and Recommendations ............................................................21
           Agency Comments and Office of Inspector General Response.....23
Appendixes ................................................................................................24
           A: Number of Community Mental Health Centers and Medicare
           Payments by State, 2010 ................................................................24
           B: Medicare Administrative Contractor Jurisdictions...................25
           C: Zone Program Integrity Contractor Zones ...............................26
           D: Medicare Administrative Contractor Activities To Detect and
           Deter Fraud, 2010 ..........................................................................27
           E: Zone Program Integrity Contractor Activities To Detect and
           Deter Fraud, 2010 ..........................................................................28
           F: Agency Comments ....................................................................29
Acknowledgments......................................................................................32
                   OBJECTIVES
                   To determine the extent to which:
                   1. the Centers for Medicare & Medicaid Services (CMS) and selected
                      contractors performed activities to detect and deter fraudulent billing
                      by community mental health centers (CMHC) in 2010 and
                   2. Medicare paid CMHCs that were subject to payment suspensions,
                      revocations, or selected electronic edits because of suspected fraud.

                   BACKGROUND
                   Medicare Part B covers partial hospitalization programs (PHP) that
                   CMHCs provide to Medicare beneficiaries. 1 During 2010, 206 CMHCs in
                   25 States received approximately $218.6 million for providing PHP
                   services to approximately 25,000 beneficiaries. 2 See Appendix A for the
                   number of CMHCs and total Medicare payments to CMHCs by State in
                   2010.
                   PHP Services and Requirements
                   PHPs are intense, structured outpatient mental health treatment programs. 3
                   They are designed for patients moving from an inpatient level of
                   psychiatric care to outpatient care or for patients at risk of relapse or
                   hospitalization.4
                   To qualify for PHPs, Medicare beneficiaries must:
                   •    have a mental disorder that severely interferes with multiple areas of
                        their daily lives, including social, vocational, and/or educational
                        functioning; 5
                   •    be cognitively and emotionally capable of participating in treatment; 6
                        and
                   •    be under an individualized treatment plan established and periodically
                        reviewed by a physician. 7



                   1
                     Social Security Act, § 1832(a)(2)(J), 42 U.S.C. § 1395k(a)(2)(J).
                   2
                     In 2010, 24 States and 1 territory had CMHCs that received Medicare reimbursement.
                   Hereinafter, we refer to the States and territories as States.
                   3
                     Social Security Act, § 1861(ff)(3)(A), 42 U.S.C. § 1395x(ff)(3)(A).
                   4
                     CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 6, § 70.3.B.1.
                   5
                     Ibid., ch. 6, § 70.3.
                   6
                     Ibid.
                   7
                     42 CFR § 424.24(e)(2); CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 6,
                   § 70.3.B.5.c.
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   1
(OEI-04-11-00101)
                   Additionally, PHPs must offer individual, group, family, occupational, and
                   activity therapies. 8 Beneficiaries must receive a minimum of 20 hours of
                   covered services per week. 9
                   To be eligible for Medicare reimbursement for PHPs, CMHCs must offer
                   the following:
                   •    outpatient services,
                   •    24-hour emergency services,
                   •    screening services, and
                   •    PHPs. 10
                   Medicare reimburses CMHCs only for PHPs; other payers, including
                   Medicaid, may cover the other three types of services. 11
                   CMHC Medicare Fraud
                   Findings from an Office of Inspector General (OIG) report and results of
                   Federal investigations indicate that CMHCs may be particularly
                   vulnerable to fraud, waste, and abuse involving PHP services. They also
                   indicate that certain areas are more prone to CMHC fraud than others. For
                   example, an OIG report on questionable billing patterns in CMHCs found
                   that approximately 82 percent (84 of 102) of CMHCs exhibiting
                   questionable billing were located in Florida, Louisiana, and Texas. 12 Eight
                   cities within those States contained high percentages of CMHCs with
                   questionable billing.
                   The Medicare Fraud Strike Force (Strike Force) is an essential component
                   of the Health Care Fraud Prevention and Enforcement Action Team
                   (HEAT), a joint effort between the Department of Health and Human
                   Services (HHS) and the Department of Justice (DOJ) to combat health
                   care fraud. 13 Strike Force teams are designed to identify and investigate
                   fraud and prosecute perpetrators quickly. They are composed of Federal
                   prosecutors, agents from OIG and the Federal Bureau of Investigation, and



                   8
                     Social Security Act, § 1861(ff)(2), 42 U.S.C. § 1395x(ff)(2); 42 CFR § 410.43(a)(4);
                   CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 6, § 70.3.B.2.
                   9
                     CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 6, § 70.3.B.1.
                   10
                      Social Security Act, § 1861(ff)(3)(B)(i)(I), 42 U.S.C. § 1395x(ff)(3)(B)(i)(I); Public
                   Health Service Act, § 1913(c)(1), 42 U.S.C. § 300x-2(c)(1); 42 CFR §§ 410.2 and
                   410.110.
                   11
                      Social Security Act, § 1866(e)(2), 42 U.S.C. § 1395cc(e)(2).
                   12
                      OIG, Questionable Billing by Community Mental Health Centers, OEI-04-11-00100,
                   August 2012.
                   13
                      Medicare Strike Force teams are located in Miami, Tampa, Baton Rouge, Houston,
                   Dallas, Los Angeles, Detroit, Brooklyn, and Chicago.
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   2
(OEI-04-11-00101)
                   in some cases State and local law enforcement agencies. Strike Force
                   teams are supported by data analysts and CMS program experts. 14
                   Strike Force investigations have led to charges against several CMHC
                   operators in a few key cities from 2009 to 2012. For example, four
                   CMHC owners and managers in Miami pleaded guilty to or were
                   convicted of Medicare fraud in 2011. These individuals manipulated
                   patients’ charts, diagnoses, and lengths of stay to fraudulently bill
                   Medicare approximately $205 million for medically unnecessary PHP
                   services from 2003 to 2010. 15 In another case, a Strike Force team
                   charged seven individuals in Baton Rouge in April 2012 for allegedly
                   fraudulently billing Medicare approximately $225 million from 2005 to
                   2011. 16 In December 2011, Strike Forces arrested three individuals in
                   Houston for allegedly participating in a scheme that resulted in more than
                   $90 million in fraudulent billing from 2006 to 2011. 17 These schemes
                   involved fraudulent billing for mental health services, including PHP
                   services.
                   The previously mentioned OIG report identified eight cities that had high
                   percentages of questionable billing CMHCs. Independent of the report,
                   Strike Force activities led to CMHC operator arrests in three of these same
                   cities (Baton Rouge, Houston, and Miami). We identified these cities as
                   prone to CMHC fraud (see Figure 1).




                   14
                      HHS, Strike Force Formed to Target Fraudulent Billing of Medicare Program by
                   Health Care Companies. Accessed at
                   http://www.hhs.gov/news/press/2007pres/05/20070509c.html on February 24, 2012.
                   15
                      DOJ, Owner of Miami-area mental health care corporation convicted on all counts for
                   orchestrating $205 million Medicare fraud scheme. Accessed at
                   http://www.justice.gov/opa/pr/2011/August/11-crm-1074.html on August 23, 2011.
                   16
                      DOJ, Medicare Fraud Strike Force Charges 107 Individuals for Approximately
                   $453 Million in False Billing. Accessed at http://www.justice.gov/opa/pr/2012/May/12-
                   ag-568.html on June 20, 2012.
                   17
                      DOJ, Owners of Houston Mental Health Company and Assisted Living Facility
                   Indicted for Alleged Roles in $90 Million Medicare Fraud Scheme. Accessed at
                   http://www.justice.gov/opa/pr/2011/December/11-crm-1639.html on February 24, 2012.
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   3
(OEI-04-11-00101)
                                              Figure 1: Fraud-Prone Areas




                          Strike Force City

                          Strike Force City With Fraud Cases Against CMHC Operators

                          City Having High Percentage of CMHCs With Questionable Billing

              Source: OIG analysis of HEAT Strike Force Cities, DOJ press releases, and CMHCs with questionable billing.




                   CMS and Medicare Contractor Coordination
                   CMS contractors assist in the oversight and administration of Medicare.
                   Oversight tasks include detecting and deterring fraud; administrative tasks
                   include processing Medicare claims. CMS directs contractor activities by
                   issuing statements of work, publishing program manuals, and offering
                   technical guidance. CMS also may inform contractors of oversight or
                   administrative activities that have been successful in other jurisdictions.
                   Contractors may consider implementing, but are not required to
                   implement, these activities in their own jurisdictions.
                   CMS approval is required before certain contractor-initiated sanctions may
                   be implemented.18 For example, CMS responds to Zone Program Integrity
                   Contractors’ (ZPIC) recommendations to suspend Medicare payments to
                   providers.19 Once a suspension has been imposed, Medicare
                   Administrative Contractors (MAC) review either 100 percent of claims or

                   18
                      CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 3, § 3.9.2.1
                   (Rev. 282, January 1, 2009). This provision was moved to CMS, Medicare Program
                   Integrity Manual, Pub. No. 100-08, ch. 8, § 8.3.2.1.
                   19
                      The initial approval is for a payment suspension period of up to 180 days, with the
                   option to extend for an additional 180 days. Providers may not appeal suspensions.
                   CMS determines which action, if any, ZPICs should take. CMS, Medicare Program
                   Integrity Manual, Pub. No. 100-08, ch. 3, § 3.9.2.4 (Rev. 282, January 1, 2009). This
                   provision has been moved to CMS, Medicare Program Integrity Manual, Pub. No.
                   100-08, ch. 8, § 8.3.2.4.
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers          4
(OEI-04-11-00101)
                   providers. 19 Once a suspension has been imposed, Medicare
                   Administrative Contractors (MAC) review either 100 percent of claims or
                   a statistical sample to determine the percentage of suspended claims that
                   are payable. 20
                   In some instances, CMS approval is required to implement revocations of
                   providers’ and suppliers’ Medicare billing privileges. 21 There is no
                   timeframe or requirement for CMS to approve or deny ZPIC
                   recommendations for revocation, and providers and suppliers may
                   continue to bill Medicare in the intervening time. Provider and supplier
                   billing privileges may be revoked for 1 to 3 years, and providers may not
                   reenroll in Medicare or receive payment during that time. Once provider
                   billing revocations are finalized, MACs are instructed to document these
                   providers and suppliers in the Provider Enrollment, Chain and Ownership
                   System. 22
                   MACs
                   The Medicare Prescription Drug, Improvement, and Modernization Act of
                   2003 mandated that the Secretary of HHS replace current claims payment
                   contractors, such as fiscal intermediaries (FI), with MACs. 23, 24 CMS


                   19
                      The initial approval is for a payment suspension period of up to 180 days, with the
                   option to extend for an additional 180 days. Providers may not appeal suspensions.
                   CMS determines which action, if any, ZPICs should take. CMS, Medicare Program
                   Integrity Manual, Pub. No. 100-08, ch. 3, § 3.9.2.4 (Rev. 282, January 1, 2009). This
                   provision has been moved to CMS, Medicare Program Integrity Manual, Pub. No.
                   100-08,
                   20
                             ch. 8, § 8.3.2.4.
                      Ibid., ch. 3, § 3.9.2.3.1 (Rev. 282, January 1, 2009). This provision has been moved to
                   CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 8, § 8.3.2.3.1.
                   21
                      CMS and/or MACs may revoke a provider’s or supplier’s Medicare billing privileges
                   for several reasons. MACs must obtain CMS approval to revoke a provider’s or a
                   supplier’s billing privileges resulting from instances in which the provider or supplier
                   submits a claim for services or supplies that could not have been furnished on the date of
                   service. MACs may revoke a provider’s or a supplier’s billing privileges for any of the
                   other listed reasons without CMS approval. The length of the revocation depends on the
                   type of infraction. Providers and suppliers may appeal revocations. CMS, Medicare
                   Program Integrity Manual, Pub. No. 100-08, ch. 15, § 15.27.2.
                   22
                      CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15, § 15.27.2.D.
                   23
                      Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                   P.L. 108-173, § 911; Social Security Act, § 1874A; HHS, Report to Congress, Medicare
                   Contracting Reform: A Blueprint for a Better Medicare, February 7, 2005.
                   24
                      CMS has contracts with three different types of MACs to process three different types
                   of Medicare claims, including (1) durable medical equipment (DME), (2) home health
                   and hospice (HH&H), and (3) other Part A and Part B claims (A/B). Four DME MAC
                   jurisdictions (which cover the entire country) are responsible for processing all durable
                   medical equipment claims. Four HH&H MAC jurisdictions (which also cover the entire
                   country) are responsible for processing all home health and hospice claims. Lastly, 15
                   A/B MAC jurisdictions (which also cover the entire country) are responsible for
                   processing all other Part A and Part B claims. This report covers only A/B MACs, and
                   we will refer to these contractors simply as MACs.
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   5
(OEI-04-11-00101)
                   established 15 jurisdictions in which MACs operate. 25 Each jurisdiction
                   covers multiple States. 26 CMS typically contracts with a different private
                   company to serve as a MAC in each jurisdiction.
                   As of November 2012, MACs were operational in 12 jurisdictions. 27
                   Appendix B provides a map of MACs and the States in each jurisdiction.
                   However, not all providers in the States listed in Appendix B are under the
                   jurisdiction of the MAC for their States. Some CMHCs in a State with an
                   active MAC are still under the jurisdiction of an FI. 28
                   MACs are responsible primarily for processing and paying Medicare
                   claims correctly, reliably, and in as timely a fashion as possible. 29 To
                   accomplish this, MACs process claims and collaborate with CMS and
                   other contractors to ensure that claims are paid correctly. 30
                   MACs also are responsible for preventing Medicare from paying for
                   inappropriate services by educating providers on appropriate billing
                   methods. 31 They also review claims for errors using computer processing
                   tools; update coverage determinations; and recoup any overpayments that
                   they, or any other contractor, identify. 32 MACs are also responsible for
                   promoting the fiscal integrity of Medicare by detecting and deterring
                   fraud. 33
                   MACs are expected to perform a number of activities to detect fraud. For
                   example, MACs screen beneficiary complaints, perform medical record



                   25
                      Over the next several years, CMS plans to further consolidate the MACs for Parts A
                   and B from 15 to 10 jurisdictions. CMS, A/B MAC Jurisdictions. Accessed at
                   https://www.cms.gov/MedicareContractingReform/
                   26
                                                                         on November 30, 2011.
                      Jurisdictions also may cover territories.
                   27
                      The 12 MACs operational by November 2012 were for jurisdictions 1, 3, 4, 5, 8, 9, 10,
                   11, 12, 13, 14, and 15. A contract for jurisdiction 6 was awarded in January 2009 but
                   was subject to a bid corrective action and protest; the MAC is expected to be operational
                   in January 2013. Also, a contract for jurisdiction 7 was not awarded as of November
                   2012. Jurisdiction F, which consolidated jurisdictions 2 and 3, became operational in
                   February 2012. Jurisdiction H, which consolidated jurisdictions 4 and 7, became
                   operational in November 2012. Until consolidation is complete, some FIs and carriers
                   continue to process Medicare claims in jurisdiction 6.
                   28
                      Until March 2006, CMHCs were allowed to select their own claims payment
                   contractors. Some CMHCs continue to use these contractors. CMS, Medicare Claims
                   Processing Manual, Pub. No. 100-04, ch. 1 § 20.
                   29
                      CMS, Part A and Part B Medicare Administrative Contractor Statement of Work,
                   Attachment J-1, Master, § C.4.4.a, September 2011.
                   30
                      This includes preventing improper payments by reviewing claims. CMS, Medicare
                   Program Integrity Manual, Pub. No 100-08, ch. 3, § 3.3.1
                   31
                      Ibid., ch. 1, § 1.3, and ch. 3, § 3.1.
                   32
                      Ibid., ch. 1, § 1.3.1.B; and ch. 3, § 3.8.
                   33
                      CMS, Part A and Part B Medicare Administrative Contractor Statement of Work,
                   Attachment J-1, Master, §§ C.4.4.a and C.5.13, September 2011.
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   6
(OEI-04-11-00101)
                   reviews, conduct site visits to problematic providers when instructed by
                   CMS, and refer providers suspected of fraud to ZPICs for investigation. 34
                   MACs collaborate with CMS and ZPICs to deter fraud. 35 In some
                   instances, CMS or MAC approval is required to implement ZPIC
                   recommendations to revoke the billing privileges of providers and
                   suppliers. 36 MACs may also independently revoke the billing privileges of
                   providers and suppliers. 37 MAC approval is also required to implement
                   ZPIC recommendations to deactivate providers that have not billed
                   Medicare in a calendar year. 38 Once deactivated, providers must reenroll
                   before they may bill Medicare. 39
                   MACs and ZPICs also work together to create autodeny edits, which are
                   electronic payment system controls intended to prevent payment for
                   potentially fraudulent claims. 40, 41 These edits analyze claims’ attributes
                   and automatically prevent Medicare from paying claims based on
                   suspicious attributes. For example, some edits prevent payment for all
                   services submitted by suspicious providers. Other edits prevent payment
                   for certain types of services for beneficiaries identified as part of a fraud
                   scheme for specific services.
                   Lastly, MACs must ensure that Medicare does not pay sanctioned
                   providers (i.e., those with payment suspensions, revoked billing privileges,
                   deactivations, or Federal health care program exclusions). 42
                   ZPICs
                   The Medicare Prescription Drug, Improvement, and Modernization Act of
                   2003 made a number of changes related to Medicare contractors, including
                   authorizing CMS to replace the current Program Safeguard Contractors



                   34
                      CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 4, §§ 4.3 and 4.6.2;
                   ch. 3, § 3.1; ch. 10, § 22. Accessed at
                   http://www.cms.gov/manuals/downloads/pim83c03.pdf on March 23, 2011; CMS, Part A
                   and Part B Medicare Administrative Contractor Statement of Work, Attachment J-1,
                   Master, § C.5.12.1.5, September 2011.
                   35
                      Ibid., § C.1.4.1.1, September 2011.
                   36
                      CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15, § 15.27.2.
                   37
                      Ibid., ch. 15, § 15.27.
                   38
                      Ibid., ch. 15, § 15.27.1.
                   39
                      There is no set amount of time before which these providers may not reenroll. Ibid.,
                   ch. 15, § 15.27.1.
                   40
                      CMS, ZPIC IDIQ Umbrella Statement of Work, § 2.2, May 2009.
                   41
                      ZPICs may also recommend overpayment recoupment and civil monetary penalties to
                   deter potential fraud.
                   42
                      CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 4, § 4.19.1; ch. 15,
                   § 15.27.1; ch. 3, § 3.9 (Rev. 282, January 1, 2009). This provision has been moved to
                   CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 8, § 8.3.
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   7
(OEI-04-11-00101)
                   (PSC) with ZPICs. 43 CMS established seven zones in which ZPICs
                   operate. Each zone covers multiple States. 44 A private company serves as
                   a ZPIC in each zone.
                   As of November 2012, ZPICs were operational in six of the seven zones. 45
                   Appendix C provides a map of ZPICs and the States in each zone.
                   However, not all providers in the States listed in Appendix C are under the
                   jurisdiction of the ZPIC for their States. Some CMHCs in a State with an
                   active ZPIC are still under the jurisdiction of a PSC. 46
                   ZPICs are responsible primarily for detecting and deterring Medicare
                   fraud. 47
                   Detecting Fraud. ZPICs perform a number of activities to detect fraud.
                   For example, ZPICs identify potential fraud through internal sources, such
                   as data analysis, and external sources, such as referrals from MACs. 48
                   ZPICs investigate providers they have identified as potentially
                   fraudulent. 49 ZPICs may conduct a range of activities when investigating
                   providers, but their Statement of Work and CMS manuals do not specify
                   any required activities. For example, ZPICs may opt to perform
                   prepayment and postpayment reviews of claims submitted by providers
                   under investigation to determine medical necessity. They also may
                   conduct onsite audits to examine records and interview providers under
                   investigation.
                   Deterring Fraud. ZPICs collaborate with law enforcement, CMS, and
                   MACs to deter fraudulent provider billing. 50 For example, ZPICs refer
                   cases of suspected fraud to OIG, DOJ, or other law enforcement agencies
                   for criminal investigation. 51 ZPICs also may recommend that CMS
                   suspend payments to providers because of potential fraud and
                   overpayments. They may recommend that CMS or MACs revoke the
                   billing privileges of providers and suppliers for noncompliance with



                   43
                      Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                   P.L.
                   44
                         108-173, § 911.
                      Zones also may cover territories.
                   45
                      The six ZPICs operational by November 2012 were in zones 1, 2, 3, 4, 5, and 7. The
                   contract for zone 6 was awarded in September 2011 and had not become operational as of
                   November 2012.
                   46
                      This is a holdover from when CMHCs were allowed to select their own contractors.
                   47
                      CMS, ZPIC IDIQ Umbrella Statement of Work, § 1.1.4, May 2009; CMS, Medicare
                   Program Integrity Manual, Pub. No. 100-08, ch. 4, § 4.2.2.
                   48
                      Ibid., ch. 4, § 4.2.2; ch. 2, § 2.2.
                   49
                      Ibid., ch. 4, § 4.7.1.
                   50
                      Ibid., ch. 4, § 4.2.2.
                   51
                      Ibid., ch. 4, § 4.18.1.
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   8
(OEI-04-11-00101)
                   Medicare requirements. 52 ZPICs also may recommend that MACs
                   deactivate providers that have not billed Medicare in over 1 year. Further,
                   ZPICs design autodeny edits that MACs implement to prevent Medicare
                   from paying potentially fraudulent claims. 53
                   South Florida High-Risk Provider Enrollment Project
                   CMS periodically undertakes temporary special projects to address
                   Medicare fraud, waste, and abuse. For these projects, CMS negotiates
                   separate contracts containing requirements and performance metrics that
                   differ from the requirements and metrics in the original contracts. In 2009
                   and 2010, CMS conducted a special project, the South Florida High-Risk
                   Provider Enrollment Project, which targeted fraud among especially
                   susceptible provider types, including CMHCs, in South Florida. 54
                   As part of the above project, CMS contracted with the jurisdiction 9 MAC
                   and zone 7 ZPIC to conduct specific actions designed to detect and deter
                   CMHC fraud in Palm Beach, Broward, and Miami-Dade Counties, Florida
                   (i.e., South Florida). 55 For example, the MAC conducted site visits to all
                   South Florida CMHCs in its jurisdiction to verify their existence and
                   operations. CMS used the results of these site visits, along with other
                   information, to create a fraud-risk score for each of these CMHCs.
                   CMHCs with high fraud-risk scores were subject to ZPIC investigation,
                   which could result in referrals to law enforcement, payment suspensions,
                   or revocations of billing privileges.
                   As of May 2011, the South Florida High-Risk Provider Enrollment Project
                   had resulted in revocations for 239 providers and suspensions for 8. 56 It
                   also resulted in a cost avoidance of approximately $156 million by using
                   edits.
                   Related OIG Work
                   Previous OIG reports have found vulnerabilities in Medicare payments to
                   CMHCs. A 2012 report found that about half of CMHCs had questionable
                   billing in 2010. Approximately two-thirds of the questionable billing




                   52
                       Ibid., ch. 15, § 15.27.2, and ch. 3, § 3.9 (Rev. 282, January 1, 2009). This provision
                    has been moved to CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 8,
                   §53 8.3.
                       CMS, ZPIC IDIQ Umbrella Statement of Work, § 2.2, May 2009.
                    54
                       The project also targeted fraud among other providers, including Comprehensive
                    Outpatient Rehabilitation Facilities and Independent Diagnostic Testing Facilities.
                    55
                       First Coast Service Options, Inc., is the MAC for most providers in Florida. SafeGuard
                    Services, LLC, is the ZPIC for most providers in Florida.
                    56
                       These figures represent all provider types, not just actions performed for CMHCs.
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   9
(OEI-04-11-00101)
                   CMHCs were located in eight metropolitan areas, all of which were in
                   Florida, Louisiana, and Texas. 57
                   Further, two 1998 reports found that Medicare paid $229 million for
                   unallowable and questionable PHP services provided by CMHCs in five
                   States over a 12-month period. 58 Through medical record review, OIG
                   found that 91 percent (4,959 of 5,431) of the PHP services reviewed did
                   not meet Medicare requirements for reimbursement. Additionally, OIG
                   found that 60 percent of States did not require CMHCs to be licensed or
                   certified. 59 This creates a vulnerability whereby dishonest individuals
                   have an opportunity to establish CMHCs and improperly bill Medicare for
                   PHP services.
                   Previous OIG reports have also found problems with CMS oversight of
                   contractor operations. A 2010 report found that Recovery Audit
                   Contractors performed minimal activities to deter fraud, and CMS did not
                   provide any formal training to the contractors regarding the identification
                   and referral of potential fraud. 60 Additionally, a 2007 report found that
                   PSCs performed substantially different levels of activities to detect fraud
                   across jurisdictions. For example, PSCs investigated between 99 and
                   1,266 providers and referred between 4 and 44 cases to OIG for criminal
                   or civil investigation in 2005. The variation in activities was not related to
                   oversight responsibility or budget. 61

                   METHODOLOGY
                   Scope
                   We limited our review to the activities that CMS and selected MACs and
                   ZPICs performed to detect and deter fraud among CMHCs under their
                   jurisdictions in 2010. We also reviewed Medicare payments to CMHCs
                   that were subject to payment suspensions, revocations, or selected
                   autodeny edits by the MACs and ZPICs in our review.



                   57
                      OIG, Questionable Billing by Community Mental Health Centers, OEI-04-11-00100,
                   August
                   58
                            2012.
                      These five States are Alabama, Colorado, Florida, Pennsylvania, and Texas. OIG,
                   Five-State Review of Partial Hospitalization Programs at Community Mental Health
                   Centers, OAS-04-98-02145, October 1998; Review of Partial Hospitalization Services
                   Provided Through Community Mental Health Centers, OAS-04-98-02146, October 1998.
                   59
                      Ibid.
                   60
                      CMS contracts with Recovery Audit Contractors to identify improper payments of
                   Medicare Part A and Part B claims. OIG, Recovery Audit Contractors’ Fraud Referrals,
                   OEI-03-09-00130, February 2010.
                   61
                      OIG, Medicare’s Program Safeguard Contractors: Activities To Detect and Deter
                   Fraud and Abuse, OEI-03-06-00010, July 2007.
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   10
(OEI-04-11-00101)
                   We selected 2010 because it was the first year that ZPICs were operational
                   in three areas prone to CMHC fraud. We defined locations as fraud-prone
                   areas if they (1) were Strike Force cities, (2) had cases against CMHC
                   operators from 2009 to 2012, and (3) were identified in an OIG report as
                   having high percentages of CMHCs with questionable billing. 62 Using
                   these criteria, we found that the cities prone to CMHC fraud were Miami,
                   Baton Rouge, and Houston.
                   We limited our review to those MACs and ZPICs operational for more
                   than 2 months in 2010 to allow contractors sufficient time to perform
                   CMHC oversight activities. 63 In 2010, Medicare reimbursed $117 million
                   to the 123 CMHCs under the jurisdiction of the 9 MACs in our review,
                   and $185 million to the 164 CMHCs under the jurisdiction of the 3 ZPICs
                   in our review. 64
                   We did not review other activities that CMS and its contractors performed
                   to oversee CMHCs.
                   Data Collection
                   In September 2011, we sent information requests to CMS and the
                   9 MACs and 3 ZPICs in our review to identify activities they performed to
                   detect and deter CMHC fraud in 2010. These requests included multiple-
                   choice options based on expected responses, as well as open-ended
                   questions to allow for elaboration. We requested that respondents submit
                   documentation to support their responses.
                   We also collected Medicare PHP claims submitted by CMHCs using
                   100-percent paid claims data from CMS’s National Claims History (NCH)
                   Outpatient File from January 1 to December 31, 2010. This included all
                   2010 claims data for CMHCs under the jurisdictions of the MACs and
                   ZPICs in our review, including those in the fraud-prone areas of Miami,
                   Baton Rouge, and Houston.
                   Data Analysis
                   We reviewed information and documentation submitted by CMS, MACs,
                   and ZPICs to determine the number and identify the type of activities to
                   detect and deter CMHC fraud each entity performed in 2010. We also


                   62
                      We reviewed DOJ press releases to identify cities where CMHC operators were
                   arrested for Medicare fraud from 2009 to 2012.
                   63
                      We reviewed MAC jurisdictions 1, 3, 4, 5, 9, 10, 12, 13, and 14. We reviewed ZPIC
                   zones 4, 5, and 7.
                   64
                      Ninety-six of these CMHCs were in both MAC jurisdictions and ZPIC zones. The
                   totals under the jurisdictions of the two types of contractors were not the same because
                   the MAC jurisdictions and ZPIC zones overlapped only in certain areas of the country.
                   The 9 MACs and 3 ZPICs in our review had oversight for a total of 191 unique CMHCs
                   to which Medicare reimbursed a total of $191 million in 2010.
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   11
(OEI-04-11-00101)
                   reviewed PHP claims data to determine the dollar amount that Medicare
                   paid CMHCs that were subject to payment suspensions, revocations, or
                   selected autodeny edits.
                   MAC Activities. To determine the extent to which MACs performed
                   activities to detect and deter fraud in the 123 CMHCs under their
                   jurisdiction, we determined the number and identified the type of such
                   activities MACs performed in 2010. We defined MAC activities to detect
                   fraud as: (1) conducting site visits, (2) screening beneficiary complaints,
                   (3) referring providers to ZPICs for investigation, and (4) performing
                   medical record reviews. We defined MAC activities to deter fraud as:
                   (1) approving revocations, (2) approving deactivations, (3) implementing
                   revocations, (4) implementing suspensions, and (5) implementing
                   autodeny edits.
                   ZPIC Activities. To determine the extent to which ZPICs performed
                   activities to detect and deter fraud in the 164 CMHCs under their
                   jurisdiction, we determined the number and identified the type of such
                   activities ZPICs performed in 2010. We defined ZPIC activities to detect
                   fraud as: (1) investigating providers for potential fraud, (2) conducting
                   prepayment and postpayment review of claims, and (3) performing onsite
                   audits. We defined ZPIC activities to deter fraud as: (1) referring
                   providers to OIG for criminal investigation, (2) recommending
                   suspensions, (3) recommending revocations, (4) recommending
                   deactivations, and (5) creating autodeny edits.
                   Additionally, we asked ZPICs to estimate the level of potential fraud
                   among the CMHCs in their respective jurisdictions.
                   CMS Activities. We also determined the number of CMHC suspension and
                   revocation recommendations that CMS received, approved, and denied.
                   Additionally, we determined the extent to which CMS paid CMHCs that
                   were subject to payment suspensions, revocations, or selected autodeny
                   edits. We identified the dates that ZPICs recommended these activities
                   and the dates that CMS and/or MACs performed them. Then we used the
                   NCH Outpatient File to determine the dollar amount Medicare paid these
                   CMHCs after ZPICs recommended the activities and after they were
                   performed.
                   Limitations
                   CMS, MACs, and ZPICs submitted documentation to substantiate their
                   responses to our information request; however, these data were
                   self-reported. Our findings also cannot be projected to all MACs and
                   ZPICs because not all were operational at the time of our review.
                   Additionally, the fraud-prone areas identified in this report are not

Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   12
(OEI-04-11-00101)
                   intended to be a comprehensive list of areas in which CMHC fraud, waste,
                   and abuse may occur.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   13
(OEI-04-11-00101)
                              FINDINGS
                              One of nine MACs we reviewed performed activities
                              to detect and deter CMHC fraud in 2010, and most of
                              these were part of a CMS-led special project
                              MACs’ primary responsibility is to process and pay Medicare claims
                              submitted by a variety of providers, including CMHCs. MACs are also
                              responsible for detecting and deterring Medicare fraud. However, only the
                              jurisdiction 9 MAC, which includes the fraud-prone area of Miami,
                              performed activities to detect and deter CMHC fraud in 2010. Most of
                              these activities were part of the South Florida High-Risk Provider
                              Enrollment Project.
                              For example, as part of the above project, CMS directed the MAC to
                              conduct site visits at 57 of the 63 CMHCs under its jurisdiction and assign
                              each a fraud-risk score. Because all CMHCs visited had high fraud-risk
                              scores, the MAC referred all 57 to ZPICs for investigation. Additionally,
                              the jurisdiction 9 MAC screened and followed up on five beneficiary
                              complaints against CMHCs in Florida. Table 1 describes the numbers of
                              CMHCs that MACs referred to ZPICs for investigation in 2010, and Table
                              D-1 in Appendix D describes the other activities that MACs performed to
                              detect CMHC fraud in 2010. 65


Table 1: Numbers of CMHCs That MACs Referred to ZPICs for Investigation, 2010
                                                                                                                   Percentage of
                                                            Percentage of                Number of                  Total CMHCs
                     Number             Medicare                Medicare            CMHCs Referred                    Referred to
                         of            Payments              Payments to               to ZPICs for                    ZPICs for        Fraud-Prone
 Jurisdiction        CMHCs            to CMHCs*                  CMHCs*               Investigation                 Investigation           Areas**
 9                            63        $55 million                       47%                            57                  100%                Miami
 4                            22        $49 million                       42%                             0                    0%              Houston
 Seven
 Others***                   38         $12 million                       11%                             0                    0%
   Total                    123       $117 million                       100%                            57                  100%
*Figures in column have been rounded.

**Not all fraud-prone areas were included in our review because the jurisdiction 7 MAC, which includes Baton Rouge, was not operational in 2010.

***This includes MACs for jurisdictions 1, 3, 5, 10, 12, 13, and 14. No other jurisdictions had operational MACs in 2010.

Source: OIG analysis of MAC activity data and documentation.




                              65
                                The jurisdiction 9 MAC performed medical record review on a number of CMHCs in
                              2010, but it stopped once it referred the CMHCs to ZPICs for investigation. The MAC
                              stated that it did so because medical record review educated the CMHCs on how to hide
                              fraudulent billing patterns.
       Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers                      14
       (OEI-04-11-00101)
                   Additionally, the jurisdiction 9 MAC approved revocations for four
                   CMHCs and a deactivation for one. The jurisdiction 9 MAC also
                   implemented these revocations and the deactivation, as well as payment
                   suspensions of five CMHCs, preventing Medicare from paying these
                   providers. The MAC also implemented an autodeny edit against 965
                   beneficiaries that a ZPIC identified as part of a fraud scheme. Table D-2
                   in Appendix D describes the activities that the MACs performed to deter
                   CMHC fraud in 2010.
                   In contrast, the other eight MACs in our review, which include the
                   fraud-prone area of Houston, performed no activities to detect or deter
                   CMHC fraud in 2010. Combined, the CMHCs under these eight MACs
                   received more than half of all Medicare payments to CMHCs in 2010
                   ($62 million of $117 million). However, these eight MACs referred none
                   of the 60 CMHCs in their jurisdictions to ZPICs for investigation in 2010.
                   They also did not conduct site visits or screen complaints regarding
                   CMHCs in 2010. Additionally, the other eight MACs in our review did
                   not prevent Medicare payments to CMHCs that were subject to sanctions.
                   These eight MACs did not independently revoke the billing privileges of
                   any CMHCs, nor did they approve or implement any revocations,
                   deactivations, payment suspensions, or autodeny edits concerning
                   CMHCs.

                   Activities to detect and deter CMHC fraud varied
                   substantially among ZPICs in 2010
                   ZPICs are responsible for preventing fraud by (1) detecting and
                   investigating potential fraud and (2) deterring fraudulent billing by
                   referring cases to law enforcement and recommending that CMS or MACs
                   sanction providers. 66 All three ZPICs we reviewed performed activities to
                   detect and deter CMHC fraud in 2010. However, the zone 7 ZPIC was
                   responsible for almost all such activities, mostly as part of the South
                   Florida High-Risk Provider Enrollment Project. The other two ZPICs we
                   reviewed performed far fewer activities to detect and deter fraud among
                   the 100 CMHCs under their jurisdiction. The number of these activities
                   was not consistent with the estimated level of CMHC fraud in their zones,
                   which include the fraud-prone areas of Baton Rouge and Houston.




                   66
                     Sanctioned providers are those with payment suspensions, revoked billing privileges, or
                   deactivations.
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   15
(OEI-04-11-00101)
                                 One ZPIC was responsible for most CMHC investigations and
                                 almost all other ZPIC activities to detect fraud
                                 The three ZPICs in our review investigated 55 of the 164 CMHCs under
                                 their jurisdiction in 2010. The zone 7 ZPIC, which includes the
                                 fraud-prone area of Miami, investigated 78 percent (50 of 64) of its
                                 CMHCs in 2010. This corresponds to the ZPIC’s estimation that at least
                                 50 percent of CMHC claims in its zone were potentially fraudulent. Table
                                 2 describes the number of CMHCs under ZPIC investigation in 2010.


Table 2: Numbers of CMHCs Under ZPIC Investigation, 2010
                Number           Medicare              Percentage of             Number of       Percentage of Total
                    of          Payments          Medicare Payments           CMHCs Under             CMHCs Under            Fraud-Prone
 Zone           CMHCs          to CMHCs*                  to CMHCs*            Investigation           Investigation               Areas
 7                     64        $56 million                      30%                       50                      91%                Miami
 5                     77        $78 million                      42%                        4                       7%          Baton Rouge
 4                     23        $50 million                      27%                        1                       2%              Houston
     Total            164      $185 million                      100%                       55                     100%
*Figures in column have been rounded.

Source: OIG analysis of ZPIC activity data and documentation.




                                 Additionally, the zone 7 ZPIC performed almost all other activities to
                                 detect fraudulent CMHC billing in 2010, largely as part of the South
                                 Florida High-Risk Provider Enrollment Project. 67 For example, CMS
                                 directed the ZPIC to perform prepayment reviews and conduct onsite
                                 audits when investigating CMHCs in South Florida. As a result, the ZPIC
                                 performed prepayment reviews for 44 CMHCs and conducted onsite
                                 audits for 39 CMHCs in 2010. 68 Medicare payments to these CMHCs
                                 decreased substantially after the ZPIC performed such actions. For
                                 example, average Medicare payments per day to CMHCs subject to
                                 prepayment review decreased approximately 80 percent after the ZPIC
                                 began reviewing their claims. Figure 2 describes the average Medicare
                                 payment per day for CMHCs with prepayment reviews and onsite audits
                                 in 2010.




                                 67
                                   The zone 7 ZPIC performed postpayment review of claims for one CMHC in 2010.
                                 68
                                   Thirty-four of these CMHCs experienced both a prepayment review and an onsite
                                 audit.
             Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers     16
             (OEI-04-11-00101)
                           Figure 2: Average Medicare Payment per Day for CMHCs With
                           Prepayment Reviews and Onsite Audits, 2010



                              $7,000            $6,093
                                                                                 $5,772
                              $6,000
                              $5,000
                              $4,000
                              $3,000                                                       $2,415
                              $2,000                      $1,065
                              $1,000
                                  $0
                                            Prepaym ent Review                    Onsite Audit



                                                    Before activity
                                                       Colum          After
                                                              n 1 Colum  n 2activity


                           Source: OIG analysis of MAC and ZPIC documentation and 2010 PHP claims.




                   In contrast, the other two ZPICs in our review, which include the
                   fraud-prone areas of Baton Rouge and Houston, investigated 5 percent of
                   CMHCs in their zones in 2010. This does not correspond to the ZPICs’
                   estimates that at least 50 percent of the CMHC claims in their zones were
                   potentially fraudulent in 2010. For example, the zone 5 ZPIC investigated
                   5 percent (4 of 77) of the CMHCs in its zone. The zone 5 ZPIC initiated
                   investigations into two CMHCs by conducting claims analysis, and it
                   initiated investigations into two others by following up on complaints.
                   While investigating these four CMHCs, the zone 5 ZPIC performed a
                   prepayment review for one CMHC and performed four postpayment
                   reviews on two CMHCs to determine whether any overpayments had been
                   made. The ZPIC also conducted an onsite audit for one CMHC.
                   Additionally, the zone 4 ZPIC investigated 4 percent (1 of 23) of CMHCs
                   in its zone, initiating the investigation by conducting claims analysis.
                   During this investigation, the zone 4 ZPIC performed one onsite audit for
                   the CMHC and no prepayment or postpayment reviews. Table E-1 in
                   Appendix E describes the activities ZPICs performed to detect fraud
                   among CMHCs in 2010.
                   One ZPIC was responsible for most CMHC referrals to law
                   enforcement and almost all other ZPIC activities to deter fraud
                   The three ZPICs in our review referred nine CMHCs to law enforcement
                   in 2010 for criminal or civil investigation. The zone 7 ZPIC, which
                   includes the fraud-prone area of Miami, referred eight of the nine CMHCs

Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   17
(OEI-04-11-00101)
                                 to law enforcement. 69 These CMHCs allegedly altered patient files,
                                 altered patient diagnoses, and paid kickbacks to patient recruiters. In
                                 2010, these eight CMHCs received approximately $5.6 million from
                                 Medicare (see Table 3).


Table 3: CMHCs That ZPICs Referred to Law Enforcement for Investigation, 2010
                                                          Percentage of       Number of                   Medicare
                Number           Medicare                     Medicare    CMHCs Referred               Payments to
                    of        Payments to                  Payments to            to Law          CMHCs Referred to          Fraud-Prone
 Zone           CMHCs            CMHCs*                        CMHCs*       Enforcement            Law Enforcement                 Areas
 7                     64          $56 million                     30%                       8                $6 million               Miami
 5                     77          $78 million                     42%                       0                        $0         Baton Rouge
 4                     23          $50 million                     27%                       1                $1 million             Houston
     Total            164        $185 million                     100%                       9                $7 million
*Figures in column have been rounded.

Source: OIG analysis of ZPIC activity data and documentation.




                                 Additionally, the zone 7 ZPIC recommended sanctions (payment
                                 suspensions, billing privilege revocations, or deactivations) for 41 unique
                                 CMHCs in 2010. CMS and MACs approved sanctions for 32 of the 64
                                 (50 percent) CMHCs in the ZPIC’s zone. 70 In 2010, these CMHCs
                                 received approximately $28 million from Medicare. Sixteen of these
                                 CMHCs submitted false information or did not operate at the addresses
                                 listed on their enrollment applications. Five others were suspected of
                                 billing Medicare fraudulently. The ZPIC also created an autodeny edit
                                 against 965 beneficiaries identified as part of a fraud scheme.
                                 In contrast, the other two ZPICs in our review, which include the
                                 fraud-prone areas of Baton Rouge and Houston, performed far fewer
                                 activities to deter fraudulent CMHC billing in 2010. For example, the
                                 zone 5 ZPIC referred none of its 77 CMHCs to law enforcement and
                                 recommended that CMS suspend payments to 1 CMHC in 2010. The
                                 suspended CMHC was in Baton Rouge, and it inappropriately copied
                                 patient records. In 2010, this CMHC received approximately $56,000
                                 from Medicare.
                                 The zone 4 ZPIC referred only one CMHC to law enforcement in 2010,
                                 representing 4 percent (1 of 23) of CMHCs in its zone. This CMHC was
                                 in Houston, and it was suspected of submitting false claims for patients.
                                 In 2010, this CMHC received approximately $1.3 million from Medicare.


                                 69
                                   All of the CMHCs that the zone 7 ZPIC referred to law enforcement were in Florida.
                                 70
                                   Three of the five CMHCs for which CMS suspended payments in 2010 also had their
                                 billing privileges revoked in 2010. The single deactivated CMHC did not bill in 2010,
                                 and therefore it was not included in the total of 64 CMHCs under the ZPIC.
             Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers     18
             (OEI-04-11-00101)
                   As of November 2012, this CMHC had not been indicted for fraud. The
                   zone 4 ZPIC did not recommend that CMS or MACs sanction any
                   CMHCs in its zone. Table E-2 in Appendix E describes the activities
                   ZPICs performed to deter CMHC fraud in 2010.

                   Medicare paid CMHCs that did not comply with its
                   requirements in 2010 and could have prevented
                   payments to potentially fraudulent CMHCs
                   CMS and its contractors did not coordinate activities to deter fraud across
                   all Florida CMHCs in 2010. For example, Medicare paid five CMHCs
                   after the effective dates that their billing privileges were revoked for
                   noncompliance with Medicare requirements. Medicare also paid nine
                   CMHCs between the time their revocations were recommended and the
                   time they were finalized. Additionally, Medicare contractors could have
                   prevented payments to seven potentially fraudulent CMHCs if they had
                   consistently applied an auto deny edit for all CMHCs in Florida.
                   MACs paid approximately $640,000 to five noncompliant
                   CMHCs in Florida after their revocations were effective
                   CMS and the jurisdiction 9 MAC, which includes the fraud-prone area of
                   Miami, approved the zone 7 ZPIC’s recommendations that 31 CMHCs
                   have their billing privileges revoked in 2010 for noncompliance with
                   Medicare requirements. However, Medicare paid a total of approximately
                   $640,000 to five of these CMHCs during an average of 18 weeks after the
                   effective dates of their billing privilege revocations. Four of these
                   CMHCs were not providing core services required for Medicare
                   participation, such as screening patients or offering outpatient services.
                   The jurisdiction 9 MAC did not implement or finalize the revocations for
                   these five CMHCs, allowing them to receive Medicare payments. Either
                   CMS or MAC approval is required to revoke providers’ or suppliers’
                   billing privileges. MACs should be able to identify all providers with
                   revoked billing privileges because only MACs ensure that Medicare does
                   not pay providers with revocations. However, CMS and the MAC
                   identified different providers with revoked billing privileges in 2010. 71
                   For example, eight of the ten CMHCs for which CMS revoked billing
                   privileges in 2010 were not documented by the MAC. This includes all
                   five CMHCs that were paid after the effective dates that their billing
                   privileges were revoked. Table 4 describes CMHC revocations identified
                   by CMS and its contractors in 2010.


                   71
                     There was an overlap of two CMHCs for which both CMS and the MAC reported
                   revocations. CMS and the MAC reported 12 unique CMHCs with revocations in 2010.
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   19
(OEI-04-11-00101)
                   Table 4: CMHC Revocations Identified by CMS and Contractors in 2010

                        Source of Revocation Data                           Number With Revoked Billing Privileges
                        Zone 7 ZPIC                                                                                            22
                        CMS                                                                                                    10
                        Jurisdiction 9 MAC                                                                                     4
                          Total*                                                                                               1
                          Unique CMHCs                                                                                         31
                   *Total reflects the CMHCs that the zone 7 ZPIC, CMS, and the jurisdiction 9 MAC agree had revoked billing
                   privileges.

                   Source: OIG analysis of CMS, MAC, and ZPIC revocation documentation.




                   MACs paid approximately $2.5 million to nine CMHCs in
                   Florida after they were recommended for revocation
                   Medicare paid approximately $2.5 million to nine CMHCs between the
                   time the ZPIC recommended their billing privileges be revoked and the
                   time their revocations were finalized. 72 CMS took an average of 42 weeks
                   to finalize these revocations, with a range of 5 to 57 weeks. Medicare paid
                   approximately $2.4 million to four of these CMHCs, whose revocations
                   were finalized between 39 and 46 weeks after ZPICs recommended their
                   revocations.
                   Medicare did not pay 18 CMHCs after their revocations were
                   recommended or finalized. These 18 CMHCs had their revocations
                   reviewed and finalized within an average of 16 weeks. Additionally, 13 of
                   these CMHCs had their revocations reviewed and finalized within an
                   average of 17 days.
                   Medicare contractors did not consistently apply an autodeny
                   edit across all Florida CMHCs
                   In 2010, Medicare contractors allowed seven CMHCs in Florida to bill for
                   beneficiaries identified as part of a fraud scheme. This was, in part,
                   because not all CMHCs in Florida were under the oversight of the same
                   contractor. Applying an effective autodeny edit across all Florida CMHCs
                   could have prevented approximately $520,000 in potentially fraudulent
                   billing by CMHCs in 2010.
                   Of the 72 CMHCs in Florida that received Medicare payments in 2010, 64
                   operated under the oversight of the jurisdiction 9 MAC and/or zone 7
                   ZPIC and 8 were under the jurisdiction of a PSC and/or an FI.


                   72
                     Medicare paid one CMHC after the ZPIC recommended its billing privileges be
                   revoked and after its revocation was finalized. There is no required timeframe for CMS
                   or MACs to approve or deny ZPIC recommendations for revocations, and providers may
                   continue to bill Medicare in the intervening time.
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers                   20
(OEI-04-11-00101)
                   The jurisdiction 9 MAC implemented a local autodeny edit in 2010 to
                   deter a fraud scheme in which South Florida CMHCs billed for prolonged
                   PHP services for beneficiaries. According to the jurisdiction 9 MAC and
                   zone 7 ZPIC, CMHCs were billing Medicare for unusually long durations
                   of PHP services for beneficiaries, some for almost an entire year
                   (362 days). 73 The MAC and ZPIC identified 965 beneficiaries who were
                   part of this fraud scheme. The MAC implemented an autodeny edit that
                   prevented the CMHCs under its oversight from providing more than
                   60 days of services in a calendar year to those beneficiaries. The zone 7
                   ZPIC reported that the autodeny edit saved Medicare approximately
                   $370,000 in denied claims from these CMHCs in 2010.
                   However, the FI did not implement the same autodeny edit for the CMHCs
                   under its oversight. CMHCs under each set of contractors served the same
                   population, submitting claims for the same 602 beneficiaries and often
                   operating within 5 miles of one another. Seven CMHCs under the
                   oversight of the FI billed for 115 of the 965 beneficiaries identified in the
                   fraud scheme. Medicare reimbursed these CMHCs approximately
                   $520,000 after the MAC implemented the edit to prevent payment for
                   additional PHP services provided to the same 115 beneficiaries. These
                   seven CMHCs billed Medicare for an average of 149 days of PHP services
                   for these beneficiaries.




                   73
                     OIG, Questionable Billing by Community Mental Health Centers, OEI-04-11-00100,
                   August 2012. PHPs should closely resemble short-term inpatient programs. They are not
                   intended to provide prolonged services. CMS, Medicare Benefit Policy Manual, Pub.
                   No. 100-02, ch. 6, § 70.3.
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   21
(OEI-04-11-00101)
                   CONCLUSION AND RECOMMENDATIONS
                   CMS and some of its contractors are responsible for ensuring the integrity
                   of the Medicare program, including the prevention of fraudulent billing.
                   Strike Force investigations indicate that some parts of the country have a
                   higher prevalence of CMHC fraud, including portions of Florida,
                   Louisiana, and Texas. Additionally, OIG found that approximately half of
                   CMHCs exhibited questionable billing in 2010, most of which were in
                   these three States. 74
                   In 2010, the 9 MACs and 3 ZPICs in our review oversaw CMHCs in much
                   of the country, including fraud-prone areas of Florida, Louisiana, and
                   Texas. Almost all MAC and ZPIC activities to detect and deter CMHC
                   fraud were performed by the jurisdiction 9 MAC and zone 7 ZPIC, both of
                   which include Florida. Most activities performed by these contractors
                   were part of the South Florida High-Risk Provider Enrollment Project.
                   However, CMS, the jurisdiction 9 MAC, and the zone 7 ZPIC
                   demonstrated vulnerabilities while detecting and deterring CMHC fraud.
                   Better communication and coordination between CMS and these
                   contractors could have prevented approximately $3.6 million in Medicare
                   payments for potentially fraudulent CMHC services. Prior OIG reports
                   have found similar vulnerabilities for other providers, such as home health
                   agencies and independent diagnostic testing facilities. 75 Therefore, the
                   vulnerabilities identified in this report may extend to other types of
                   providers.
                   We recommend that CMS:
                   Implement Additional CMHC Fraud Mitigation Activities in All
                   Fraud-Prone Areas
                   These activities may include aspects of CMS’s South Florida High-Risk
                   Provider Enrollment Project, such as coordinating with MACs and ZPICs
                   to conduct unannounced postenrollment site visits, subject CMHCs
                   suspected of fraud to prepayment review, refer highly suspicious CMHCs
                   to law enforcement, sanction noncompliant or potentially fraudulent
                   CMHCs, and/or implement edits to mitigate fraud schemes. Specifically,
                   CMS should work with MACs and ZPICs covering fraud-prone areas,
                   such as parts of Louisiana and Texas, to implement these activities.


                   74
                      OIG, Questionable Billing by Community Mental Health Centers, OEI-04-11-00100,
                   August 2012.
                   75
                      OIG, Miami Independent Diagnostic Testing Facilities’ Compliance With Medicare
                   Standards, OEI-05-09-00560, August 2011; and CMS and Contractor Oversight of Home
                   Health Agencies, OEI-04-11-00220, December 2012.
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   22
(OEI-04-11-00101)
                   Develop a System To Track Revocation Recommendations and
                   Improve Revocation Communication With Contractors
                   This system should flag recommendations to which CMS or its contractors
                   have not responded within a specified timeframe (e.g., within 30 days of
                   receipt) and require documentation to justify why any cases exceed this
                   timeframe. For cases that exceed this timeframe, CMS should consider
                   implementing safeguards (e.g., prepayment reviews and payment
                   suspensions) to prevent payments to providers recommended for
                   revocation while it determines appropriate action. Doing so could have
                   prevented approximately $2.5 million in Medicare payments to nine
                   noncompliant CMHCs during the average of 42 weeks between the time
                   their revocations were recommended and the time they were finalized.
                   Additionally, CMS should coordinate with MACs and ZPICs to improve
                   its communication concerning revocations. While CMS or MAC approval
                   is required to revoke providers’ billing privileges, only MACs document
                   revocations in the Provider Enrollment, Chain and Ownership System.
                   MACs then use edits to ensure that providers with revocations do not
                   receive Medicare payments. CMS should also document providers with
                   revocations in the system to ensure that these providers do not
                   inappropriately receive Medicare payments.
                   Coordinate Activities To Deter CMHC Fraud in Florida
                   Florida is the only State in our review with CMHCs under both FIs and
                   MACs. CMS should coordinate FI and MAC activities to deter fraud in
                   Florida so that all CMHCs operating there are subject to the same
                   activities. This can prevent the shift of a fraud scheme from a CMHC
                   under the oversight of one contractor to another. It will also ensure the
                   consistency of activities to deter fraud, including edits. Lastly, it would
                   help contractors track fraud schemes across all CMHCs in Florida, which
                   would allow contractors to more accurately inform CMS of billing
                   vulnerabilities. Further, CMS should consider consolidating all CMHCs
                   in Florida under the oversight of the same contractors.
                   Follow Up on Payments Made to CMHCs After the Effective
                   Dates of Their Billing Privilege Revocations
                   In a separate memorandum, we referred to CMS the CMHCs that
                   Medicare paid after having their billing privileges revoked. CMS should
                   follow up on payments made to these CMHCs. Such payments should not
                   have been made. Additionally, CMS should ensure that edits are in place
                   and are functioning properly to prevent payments to CMHCs with revoked
                   billing privileges.




Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   23
(OEI-04-11-00101)
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with all four of our recommendations and acknowledged
                   that CMHCs’ partial hospitalization program services have historically
                   been vulnerable to fraud, waste, and abuse. Therefore, CMS is taking
                   additional steps to address potential vulnerabilities in the enrollment and
                   claims payment process for CMHCs. These include screening measures,
                   such as licensure checks for new enrolling providers and unannounced site
                   visits for revalidating providers.
                   With regard to the first recommendation, CMS stated that it will review
                   the work performed by ZPICs and MACs to ensure that they are pursuing
                   appropriate additional CMHC fraud mitigation activities using lessons
                   learned from the South Florida High-Risk Provider Enrollment Project.
                   With regard to our second recommendation, CMS stated that it has
                   developed and implemented a tracking system used by the revocation team
                   that delineates revocation-specific tasks, status, request dates, contact
                   dates, and other applicable information. CMS also stated that it
                   established a set of guidelines to ensure that revocation recommendations
                   are addressed in a timely manner.
                   With regard to our third recommendation, CMS stated that it will draft a
                   Technical Direction letter to the affected MACs about coordinating
                   CMHC edits.
                   With regard to our final recommendation, CMS will attempt to recover the
                   overpayments made to CMHCs with revoked billing privileges consistent
                   with the agency’s policies and procedures. CMS also stated that it has
                   ensured that properly functioning edits are in place to prevent
                   inappropriate Medicare payments to CMHCs with revoked billing
                   privileges.
                   We support CMS’s efforts to address these issues and encourage it to
                   continue making progress. For the full text of CMS’s comments, see
                   Appendix F.




Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   24
(OEI-04-11-00101)
                   APPENDIX A
                          Number of Community Mental Health Centers (CMHC) and
                          Medicare Payments by State, 2010
                                                       Total Number
                          State                          of CMHCs*                   Total Medicare Payment
                          Florida                                        72                           $82,389,314
                          Louisiana                                      57                           $60,725,138
                          Texas                                          23                           $50,403,363
                          Mississippi                                     4                            $6,728,693
                          Tennessee                                       4                            $4,007,575
                          Massachusetts                                  10                            $3,192,482
                          Georgia                                         3                            $2,153,531
                          North Carolina                                  1                            $2,135,432
                          South Carolina                                  1                            $1,630,377
                          California                                      4                            $1,614,811
                          Alabama                                         6                              $841,167
                          Michigan                                        1                              $748,687
                          Arizona                                         1                              $541,137
                          West Virginia                                   1                              $270,169
                          Connecticut                                     2                              $259,370
                          Maryland                                        1                              $250,238
                          New York                                        1                              $177,722
                          Minnesota                                       3                              $121,685
                          Illinois                                        2                              $113,998
                          Nebraska                                        1                              $102,492
                          Pennsylvania                                    4                                $67,346
                          Utah                                            1                                $55,915
                          Iowa                                            1                                $49,584
                          Missouri                                        1                               $16, 815
                          Puerto Rico                                     1                                 $1,078
                              Total                                     206                         $218.6 million
                        *Not all CMHCs included in this table were included in this study.


                        Source: Office of Inspector General analysis of 2010 Medicare Partial Hospitalization Program claims data.




Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers                    25
(OEI-04-11-00101)
                   APPENDIX B
                   Medicare Administrative Contractor Jurisdictions




                               2*                                                                           14
                                                       3                 6*        8*           13

                                                                                                    12
                                                                   5                  15*
                          1
                                                                                              11*

                                                           4                        10
                                                                           7*


                                                                                                9




                   Medicare Administrative Contractors and Operational Dates:

                   Jurisdiction 1, Palmetto GBA, LLC, September 2008: American Samoa, California, 

                       Guam, Hawaii, Nevada, and Northern Mariana Islands.
                   Jurisdiction 2,*† not operational: Alaska, Idaho, Oregon, and Washington.
                                  †
                   Jurisdiction 3, Noridian Administrative Services, LLC, March 2007: Arizona,
                       Montana, North Dakota, South Dakota, Utah, and Wyoming.
                   Jurisdiction 4,‡ Trailblazer Health Enterprises, LLC, June 2008: Colorado, New
                       Mexico, Oklahoma, and Texas.
                   Jurisdiction 5, Wisconsin Physicians Service, June 2008: Iowa, Kansas, Missouri,
                       and Nebraska.
                   Jurisdiction 6,* not operational: Illinois, Minnesota, and Wisconsin.
                   Jurisdiction 7,*‡ not operational: Arkansas, Louisiana, and Mississippi.
                   Jurisdiction 8,* Wisconsin Physicians Service, August 2012: Indiana and Michigan.
                   Jurisdiction 9, First Coast Service Options, Inc., March 2009: Florida, Puerto Rico,
                       and Virgin Islands.
                   Jurisdiction 10, Cahaba Government Benefit Administrators, September 2009:
                       Alabama, Georgia, and Tennessee
                   Jurisdiction 11,* Palmetto Government Benefit Administrators, June 2011: North
                       Carolina, South Carolina, Virginia, and West Virginia.
                   Jurisdiction 12, Highmark Medicare Services, Inc., December 2008: Delaware,
                       Maryland, New Jersey, Pennsylvania, and Washington, D.C.
                   Jurisdiction 13, National Government Services, Inc., November 2008: Connecticut
                       and New York.
                   Jurisdiction 14, National Heritage Insurance Company, June 2009: Maine,
                       Massachusetts, New Hampshire, Rhode Island, and Vermont.
                   Jurisdiction 15,* Cigna Government Services, June 2011: Kentucky and Ohio.
                   *
                    Jurisdiction was not included in our review because it was not operational for more than 2 months in 2010.
                   †
                    Jurisdictions were consolidated into Jurisdiction F under Noridian Administrative Services in February 2012.
                   ‡
                    Jurisdictions were consolidated into Jurisdiction H under Novitas in November 2012.




Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers                  25
(OEI-04-11-00101)
                   APPENDIX C
                   Zone Program Integrity Contractor Zones




                                         2*
                                                                                            6*
                                                                          3*

                          1*


                                                     4                         5



                                                                                       7




                   Zone Program Integrity Contractor Zones and Operational Dates:
                            *
                   Zone 1, SafeGuard Services, LLC, December 2010: American Samoa, California,
                      Guam, Hawaii, Nevada, and Northern Mariana Islands.
                          *
                   Zone 2, AdvanceMed Corporation, February 2011: Alaska, Arizona, Idaho, Iowa,
                      Kansas, Missouri, Montana, Nebraska, North Dakota, Oregon, South Dakota, Utah,
                      Washington, and Wyoming.
                          *
                   Zone 3, Cahaba Safeguard Administrators, LLC, April 2012: Illinois, Indiana,
                      Kentucky, Michigan, Minnesota, Ohio, and Wisconsin.
                   Zone 4, Health Integrity, LLC, February 2009: Colorado, New Mexico, Oklahoma, and
                      Texas.
                   Zone 5, AdvanceMed Corporation, December 2009: Alabama, Arkansas, Georgia,
                      Louisiana, Mississippi, North Carolina, South Carolina, Tennessee, Virginia, and
                      West Virginia.
                          *
                   Zone 6, Cahaba Safeguard Administrators, LLC, not yet operational: Connecticut,
                      Delaware, Maine, Maryland, Massachusetts, New Hampshire, New Jersey, New
                      York, Pennsylvania, Rhode Island, Vermont, and Washington, D.C.
                   Zone 7, SafeGuard Services, LLC, February 2009: Florida, Puerto Rico, and Virgin
                      Islands.

                   *
                    Zone was not included in our review because it was not operational for more than 2 months in 2010.




Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers    27
(OEI-04-11-00101)
                                          APPENDIX D
                                          Medicare Administrative Contractor Activities To Detect and
                                          Deter Fraud, 2010
                Table D-1: Activities To Detect Community Mental Health Center (CMHC) Fraud
                                                                                                               Screened/
                                   Number of         Medicare Payments                                    Followed Up on                Total       Fraud-Prone
                Jurisdiction         CMHCs                   to CMHCs*                  Site Visits           Complaints            Activities          Areas**
                9                        63                   $55 million                       57                     5                    62            Miami
                4                        22                   $49 million                         0                    0                     0          Houston
                Seven
                Others***                   38                  $12 million                      0                           0              0
                  Totals                   123                $117 million                      57                           5             62
              *Figures in column have been rounded.

              **Not all fraud-prone areas were included in our review because the jurisdiction 7 Medicare Administrative Contractor (MAC), which includes
              Baton Rouge, was not operational in 2010.

              ***This includes MACs for jurisdictions 1, 3, 5, 10, 12, 13, and 14. No other jurisdictions had operational MACs in 2010.

              Source: Office of Inspector General (OIG) analysis of MAC activity data and documentation.



    Table D-2: Activities To Deter CMHC Fraud
                 Number           Medicare                                                Implement
                     of        Payments to          Approve              Approve           Autodeny         Implement             Implement          Total     Fraud-Prone
Jurisdiction     CMHCs            CMHCs*         Revocations         Deactivations             Edits      Suspensions            Revocations     Activities        Areas**
 9                   63          $55 million               4                     1              1***                5                      4             15          Miami
 4                   22          $49 million               0                     0                 0                0                      0              0        Houston
 Seven
 Others†                38       $12 million                   0                    0                 0                  0                 0             0
   Totals              123     $117 million                    4                    1                 1                  5                 4            15
*Figures in column have been rounded.

**Not all fraud-prone areas were included in our review because the jurisdiction 7 MAC, which includes Baton Rouge, was not operational in 2010.

***This autodeny edit included 965 beneficiaries who were part of the same fraud scheme.
†
This includes MACs for jurisdictions 1, 3, 5, 10, 12, 13, and 14. No other jurisdictions had operational MACs in 2010.

Source: OIG analysis of MAC activity data and documentation.




                  Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers                           28
                  (OEI-04-11-00101)
                                      APPENDIX E
                                      Zone Program Integrity Contractor Activities To Detect and
                                      Deter Fraud, 2010
        Table E-1: Activities To Detect Community Mental Health Center (CMHC) Fraud
                                               Medicare
                    Number of               Payments to           Prepayment                Onsite     Postpayment                  Total         Fraud-Prone
        Zone          CMHCs                    CMHCs*                 Review                Audits          Review              Activities              Areas
        7                 64                 $56 million                  44                   39                1                      84              Miami
        5                 77                 $78 million                   1                     1               4                       6        Baton Rouge
        4                 23                 $50 million                   0                     1               0                       1            Houston
          Total          164                $185 million                  45                   41                5                      91
       * Figures in column have been rounded.

       Source: Office of Inspector General (OIG) analysis of Zone Program Integrity Contractor (ZPIC) data and documentation.




 Table E-2: Activities To Deter CMHC Fraud
             Number           Medicare
                 of        Payments to        Suspensions           Revocations            Deactivations    Autodeny Edits               Total         Fraud-Prone
 Zone        CMHCs            CMHCs*         Recommended          Recommended             Recommended       Recommended              Activities              Areas
 7               64         $56 million                  5                   40                        1               1**                   47              Miami
 5               77         $78 million               1***                    0                        0                 0                    1        Baton Rouge
 4               23         $50 million                  0                    0                        0                 0                    0            Houston
  Total         164        $185 million                  6                   40                        1                 1                   48
* Figures in column have been rounded.

**This autodeny edit included 965 beneficiaries who were part of the same fraud scheme.

***This suspension was recommended in Louisiana. Because the Medicare Administrative Contractor for the jurisdiction that included Louisiana was not
operational during 2010, a fiscal intermediary implemented this suspension.

Source: OIG analysis of ZPIC data and documentation.




               Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers                       29
               (OEI-04-11-00101)
                            APPENDIX F
                            Agency Comments


        ,~1&,~· ,




    (      ~            DEPARTMENT OF HEALTH & HUMAN SERVICES                                           Centers for Medocare & Medicaid Services

        <~~                                                                                             Administrator
                                                                                                        Washington, DC 20201




                    DATE:            NOV 2 0 2012
                    TO: 	           Daniel R. Levinson
                                    Inspector General

                    FROM: 	         I»MilyiTl~elrne!'
                                    Actlltg Al!mm istrator

                    SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "Vulnerabilities in CMS and
                               Contractors' Activities to Detect and Deter Fraud in Community Mental Health
                               Centers" (OEI-04-11-00101)

                    The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                    comment on the HHS OIG's report entitled, ''Vulnerabilities in CMS and Contractors' Activities
                    to Detect and Deter Fraud in Community Mental Health Centers." OIG's objectives for this draft
                    report were to determine the extent to which: (1) CMS and its selected contractors performed
                    activities to detect and deter fraudulent billing by community mental health centers (CMHC) in
                    2010; and (2) Medicare paid CMHCs that were subject to payment suspensions, revocations, or
                    selected electronic edits because of suspected fraud .

                    As stated in OIG's report, CMHCs' partial hospitalization program (PHP) services have
                    historically been vulnerable to fraud, waste, and abuse. As such, CMS is taking additional steps
                    to address potential vulnerabilities in the enrollment and claims payment process for this supplier
                    group using the authorities granted under Section 6401 of the Affordable Care Act. Under the
                    new screening regulations (CMS 6028-FC\ newly enrolling CMHCs fit within the moderate
                    risk category and are subject to unannounced physical site visits in addition to other screening
                    measures such as licensure checks. Those CMHCs already enrolled in Medicare will have to
                    revalidate their Medicare enrollment beginning this year and will be subject to an unannounced
                    physical site visit as part of the revalidation process.

                    In addition, CMS implemented the Fraud Prevention System (FPS) in June of2011, which
                    applies predictive analytic technology to claims prior to payment to identify aberrant and
                    suspicious billing patterns. CMS uses the FPS to target investigative resources to suspect claims
                    and providers, and swiftly imposes administrative action when warranted. The FPS has been
                    running predictive algorithms and other sophisticated analytics nationwide against all Medicare
                    fcc-for-service claims, including those submitted by CMHCs, home health age.ncics and
                    suppliers of durable medical equipment, prosthetics, orthotics, and supplies claims. CMS is


                    1
                     CMS 6028-FC entitled, "Medicare, Medicaid and Children's Health Insurance Programs; Additional Screening
                    Requirements, Application Fees, Temporary Enrollment Moratoria, Payment Suspensions and Compliance Plans for
                    Providers and Suppliers" was published in the Federal Register on February 2, 2011.




Vulnerabilities in CMS's and Contractors' Activities To Detect and Deter Fraud in Community Mental Health Centers                                  29
(OEI-04-11-00101)
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   31
(OEI-04-11-00101)
Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   32
(OEI-04-11-00101)
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Dwayne Grant, Regional
                   Inspector General for Evaluation and Inspections in the Atlanta regional
                   office, and Jaime Durley, Deputy Regional Inspector General.
                   Evan Godfrey served as the lead analyst for this study. Other principal
                   Office of Evaluation and Inspections staff from the Atlanta regional office
                   who contributed to the report include Latrice Rollins; central office staff
                   who contributed include Sandy Khoury, Scott Horning, and Debra Roush.




Vulnerabilities in CMS’s and Contractors’ Activities To Detect and Deter Fraud in Community Mental Health Centers   33
(OEI-04-11-00101)
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
